             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


   DEBT COLLECTION ACTIVITIES IN THE
SUPPLEMENTAL SECURITY INCOME PROGRAM


       April 2011   A-07-10-20139




   AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY

MEMORANDUM

Date:      April 22, 2011                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Debt Collection Activities in the Supplemental Security Income Program
           (A-07-10-20139)


           OBJECTIVE

           The objective of this audit was to identify the potential financial impact if the Social
           Security Administration (SSA) performed additional debt collection activities for
           Supplemental Security Income (SSI) overpayments.

           BACKGROUND
           SSI is a nation-wide, Federal cash assistance program administered by SSA that
           provides a minimum level of income to financially needy individuals who are aged, blind,
           or disabled. 1 Payments under the SSI program are funded from the Government’s
           General Fund, which is financed through tax payments of the American public.2 No
           individual shall be considered eligible for SSI payments for any period during which they
           have income or resources that exceed the allowable limit amounts established under
           the Social Security Act. 3

           When an individual receives a payment of more than the amount due for any period, the
           individual is considered overpaid. 4 When an SSI recipient is initially determined to be
           overpaid, the overpayment must be resolved by recovery, waiver, a determination that
           the debt either did not exist or was uncollectible, or any combination thereof. SSA uses


           1
               The Social Security Act § 1601, 42 U.S.C. § 1381.
           2
            20 C.F.R. § 416.110. In addition, States may choose to provide supplementary payments administered
           by SSA.
           3
               The Social Security Act § 1611(a), 42 U.S.C. § 1382(a); See also 20 C.F.R. § 416.202.
           4
               20 C.F.R. § 416.537.
Page 2 - The Commissioner

nine debt collection activities to recover SSI overpayments (see Appendix D). Most
overpayments are recovered through benefit withholding, which, along with installment
plans, are considered collection arrangements.

RESULTS OF REVIEW
Our review focused on SSA’s debt collection arrangements in the SSI program. Since
Fiscal Year (FY) 2002, the percent of outstanding SSI debt in a collection arrangement
has decreased. Specifically, between FYs 2002 and 2010, SSI debt in a collection
arrangement decreased by more than 5 percent. SSA stated resource constraints in
the SSI program have caused the Agency to shift focus from debt collection activities
and other program integrity workloads to maintain front-line services. 5

During FYs 2008 through 2011, we estimated, based on historical SSI collection rates,
that SSA could have recovered an additional $200 million of SSI debt. This could have
been accomplished if SSA had placed an additional $441 million of outstanding SSI
debt into collection arrangements at the FY 2002 level during FYs 2008 through 2010. 6

ADDITIONAL DEBT RECOVERIES WITH INCREASED DEBT IN A COLLECTION
ARRANGEMENT

SSA has seen a decline in the percent of outstanding SSI debt in a collection
arrangement since FY 2002. Specifically, the percent of SSI debt in a collection
arrangement dropped 5.3 percent—from 55.4 percent in FY 2002 to 50.1 percent in
FY 2010 (see Table 1 on the next page). 7




5
 Other program integrity workloads include continuing disability reviews and SSI redeterminations.
Front-line services include processing retirement claims, disability claims, and applications for
enumeration. We conducted two reviews on how the decreases in other program integrity workloads had
affected the Title II Trust Funds and the General Fund: SSA OIG, Supplemental Security Income
Redeterminations (A-07-09-29146) July 2009, and SSA OIG, Full Medical Continuing Disability Reviews
(A-07-09-29147) March 2010.
6
 The additional debt in a collection arrangement and subsequent recoveries include amounts from the
Federal SSI program and federally administered State supplements.
7
 Between FYs 2002 and 2009, SSA wrote off debt between $842 million and $1.1 billion annually. These
write-offs included debt for both the SSI and Old-Age, Survivors and Disability Insurance programs.
Page 3 - The Commissioner

                     Table 1: SSI Debt in a Collection Arrangement 8
               Fiscal Year Percent of Debt in a Collection Arrangement 9
                  2002                           55.4%
                  2003                           55.0%
                  2004 10                        53.5%
                  2005                           53.0%
                  2006                           53.0%
                  2007                           52.0%
                  2008                           50.4%
                  2009                           49.9%
                  2010                           50.1%

We requested from SSA the optimal level of outstanding SSI debt in a collection
arrangement. However, SSA stated it did not have an optimal level. In fact, SSA had
not had a goal for outstanding SSI debt in a collection arrangement since FY 2007. 11

Therefore, we calculated the additional SSI debt that could have been in a collection
arrangement during FYs 2008 through 2010 and subsequently recovered had SSA
placed debt in a collection arrangement at the FY 2002 level of 55.4 percent. At this
level, we estimated SSA could have placed an additional $441 million of outstanding
SSI debt in a collection arrangement during FYs 2008 through 2010. Based on
historical SSI collection rates, we also estimated SSA could have recovered




8
  These percentages are reported in SSA’s Performance and Accountability Reports (PAR) and provided
by SSA. SSA defines the percent of outstanding debt in a collection arrangement as the percent of
outstanding debt that is scheduled for collection by benefit withholding or installment payment.
Outstanding SSI debt is grouped into four main categories: newly established debt; debt that involves a
current due process request, such as waiver; debt that is in a collection arrangement; and debt that is not
in a collection arrangement. The percent of debt in a collection arrangement is computed by dividing the
dollars in that category by the total dollar amount of outstanding debt in all four categories. We did not
audit the accuracy of these percentages.
9
 The percents of SSI debt in a collection arrangement for FYs 2005 through 2007 were rounded to the
nearest whole number as reported in SSA’s PAR for those FYs.
10
  According to the PAR, the FY 2004 performance represents data from May through September 2004
only. The data reported from October 2003 through April 2004 were incomplete.
11
  Despite a decline in SSI debt in a collection arrangement, SSA’s goals for SSI debt in a collection
arrangement fluctuated from a low of 53 percent in FY 2005 to a high of 56 percent in FY 2007. SSA
stopped including the percent of SSI debt in a collection arrangement as a performance indicator in the
PAR after FY 2007 because the measure was considered repetitive or not meaningful to the public.
According to SSA, the removal was based on guidance from the Office of Management and Budget. SSA
does not intend to include the measure in future PARs.
Page 4 - The Commissioner

approximately $200 million of the $441 million during FYs 2008 through 2011 (see
Appendix C, Table C-1). 12

RESOURCES FOR DEBT COLLECTION ACTIVITIES

According to SSA, resource constraints in the SSI program resulted in a decline in the
percent of outstanding SSI debt in a collection arrangement because the Agency shifted
focus from debt collection activities to front-line services. For example, SSA partially
attributes the decrease in outstanding SSI debt in a collection arrangement to a
decrease in the number of redeterminations conducted. 13

According to SSA, the decrease in redeterminations resulted in fewer overpayments
being detected for recipients who continued to receive payments and therefore less
debt in collection arrangements. 14 Accordingly, the outstanding SSI debt balance had a
greater percentage of overpayments to individuals no longer in payment status.
However, the percent of outstanding SSI debt in a collection arrangement continued to
decline through FY 2009 and increased only slightly in FY 2010 (see Table 1) despite a
substantial increase in redeterminations from FYs 2008 to 2010. 15

SSA also attributes the decrease in outstanding SSI debt in a collection arrangement to
the decrease in the number of debtor contact representatives (DCR). Between
FYs 2004 and 2009, SSA made fewer DCRs available to process the outstanding debt
workload. In fact, the number of DCRs decreased by 16 percent—from 193 DCRs in
FY 2004 to 162 DCRs in FY 2009. However, the number of DCRs had increased since
the end of FY 2009, possibly contributing to the slight increase in the percent of debt in
a collection arrangement in FY 2010 (see Table 1). 16

SSA should conduct all debt collection activities needed to fulfill the Agency’s
stewardship responsibilities and maximize overpayment recoveries. To do so, SSA
should identify a reasonable goal for the level of SSI debt that should be in a collection


12
  We estimated that, from FYs 2008 through 2011, SSA could have recovered an additional $212 million
of SSI debt at a cost of over $12 million (see Appendix C, Table C-1). For the purposes of this review, we
did not estimate the amount of remaining debt that would be recovered after FY 2011. However, SSA
would have the potential to recover the remaining outstanding SSI debt in a collection arrangement over
the next several years.
13
     The number of redeterminations declined from 2.4 million in FY 2003 to 900,000 in FY 2008.
14
  While providing technical comments to our formal draft report, SSA stated increases in the SSI
administrative waiver tolerance could be another reason for the decrease in the percentage of
outstanding SSI debt in a collection arrangement. Specifically, the SSI administrative waiver tolerance
increased from $100 to $500 in January 2002 and from $500 to $1,000 in October 2008.
15
 SSA conducted 1.4 million redeterminations in FY 2009 and 2.2 million redeterminations in FY 2010,
which are significant increases over the FY 2008 level of 900,000 redeterminations.
16
     At the end of FY 2009, SSA had 162 DCRs, but as of October 31, 2010, SSA had 201 DCRs.
Page 5 - The Commissioner

arrangement each year and dedicate the necessary resources to processing the debt
collection workload to achieve the goal.

CONCLUSION AND RECOMMENDATION
According to SSA, over the past several years SSA’s stewardship work had not been
fully funded. In addition, SSA had focused its resources on providing front-line services.
As a result, outstanding SSI debt in a collection arrangement was below historic levels.
If the percent of debt in a collection arrangement continues at current levels, SSA will
continue to forego the opportunity to recover millions of dollars in overpayments. To
avoid this, we recommend SSA identify a reasonable goal for the level of SSI debt that
should be in a collection arrangement each year and dedicate the necessary resources
to processing the debt collection workload to achieve the goal.

AGENCY COMMENTS
SSA disagreed with our recommendation. Because of budget uncertainties, SSA stated
that it is directing its resources to more cost-effective program integrity work. For
example, in FY 2010, SSA used the Access to Financial Institutions (AFI) Project, which
enabled SSA to electronically verify bank account balances and identify undisclosed
bank accounts that may preclude SSI eligibility. In addition, SSA believes SSI payment
accuracy will continue to improve, thereby reducing the amount of SSI debt needing to
be recouped. With less debt to recoup and the increased use of more efficient methods
for preventing, detecting, and recouping SSI overpayments, SSA stated it will not
establish a goal for SSI debt collection arrangements. See Appendix E for the full text
of SSA’s comments.

OIG RESPONSE
We applaud SSA for implementing new methods, such as AFI, to prevent, detect, and
recoup SSI overpayments. We also understand that SSA must balance its resources
between service delivery and program integrity. As part of that balance, we believe the
Agency needs a goal for the level of debt in a collection arrangement. Without such a
goal, Congress and other stakeholders lack necessary information to assess whether
sufficient resources are allocated to debt collection activities. Therefore, we remain
committed to our recommendation.




                                         Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Additional Supplemental Security Income Debt in a Collection
             Arrangement
APPENDIX D – Supplemental Security Income Debt Collection Activities
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
AFI      Access to Financial Institutions
C.F.R.   Code of Federal Regulations
DCR      Debtor Contact Representative
ECO      External Collection Operation
FY       Fiscal Year
OFPO     Office of Financial Policy and Operations
OIG      Office of the Inspector General
PAR      Performance and Accountability Report
SSA      Social Security Administration
SSI      Supplemental Security Income
TOP      Treasury Offset Program
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
To complete the objective of our review, we:

•   Reviewed applicable laws and regulations and pertinent sections of the Program
    Operations Manual System related to Supplemental Security Income (SSI) debt
    collection activities.

•   Reviewed the Social Security Administration’s (SSA) Performance and
    Accountability Reports for Fiscal Years (FY) 2002 through 2009 to obtain the percent
    of debt in a collection arrangement.

•   Obtained information from SSA’s Office of Budget, Finance, and Management;
    Office of Quality Performance; and Chief Information Officer, including

          o the percentage of outstanding debt determined to be both delinquent and
            estimated to be uncollectible,

          o information regarding planned or proposed debt collection activities,

          o the total outstanding debt for FYs 2008 through 2010, and

          o the cost to collect $1 of SSI debt for FYs 2008 through 2010.

•   Calculated the additional debt SSA could have recovered by increasing the percent
    of SSI debt in a collection arrangement (see Appendix C).

The entity reviewed was the Office of Operations. Our work was conducted at the
Office of Audit in Kansas City, Missouri, from March through December 2010. We
determined that the data used in this report were sufficiently reliable given the review
objective and their intended use. We conducted our review in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.
                                                                                      Appendix C

   Additional Supplemental Security Income Debt
   in a Collection Arrangement
   We estimated the additional Supplemental Security Income (SSI) debt the Social
   Security Administration (SSA) could have placed in a collection arrangement during
   Fiscal Years (FY) 2008 through 2010 by assuming SSA placed debt into a collection
   arrangement at the level it did in FY 2002 (55.4 percent of SSI debt in a collection
   arrangement). Specifically, we estimated SSA could have placed an additional
   $441 million in a collection arrangement during FYs 2008 through 2010. Based on
   historical SSI collection rates, we also estimated SSA could have recovered
   approximately $200 million of the $441 million during FYs 2008 through 2011 (see
   Table C-1). 1

Table C-1: Additional SSI Debt in a Collection Arrangement for FYs 2008 – 2010 at the FY 2002
              Level and Subsequent Debt Recoveries During FYs 2008 – 2011 2
                    Additional                          FY of Additional Debt Recoveries
    FY of
                   SSI Debt in a
 Collection
                    Collection
Arrangement                            2008            2009              2010         2011            Total
                   Arrangement
    2008
                   $286,515,000     $53,005,275    $40,630,692    $32,982,315     $27,342,339     $153,960,621
See Table C-2
    2009
                    $85,121,353                    $14,811,115    $12,023,051      $9,967,109      $36,801,275
See Table C-3
    2010
                    $69,156,568                                   $11,825,773      $9,803,566      $21,629,339
See Table C-4
    Total          $440,792,921     $53,005,275    $55,441,807    $56,831,139     $47,113,014     $212,391,235
                                                              3
Additional Debt Recovery Costs During FYs 2008 – 2011                                              $12,743,474
                                                                     4
Additional Debt Recoveries Net of Costs During FYs 2008 – 2011                                    $199,647,761

   Our estimates are based on the following methodology.

   1. SSA provided the total amount of outstanding SSI debt at the end of the FY. For
      example, the outstanding SSI debt at the end of FY 2008 was $5,730,300,000
      (see Table C-2, row 1).
   1
    The additional debt in a collection arrangement and subsequent recoveries include amounts from the
   Federal SSI program and federally administered State supplements.
   2
     For the purposes of this review, we did not estimate the amount of remaining debt that would be
   recovered after FY 2011. However, SSA would have the potential to recover the remaining outstanding
   SSI debt in a collection arrangement over the next several years.
   3
    Additional Debt Recoveries ($212,391,235) times historical cost to collect $1 of SSI debt ($0.06) during
   FYs 2008 through 2010 as provided by SSA’s Office of Financial Policy and Operations (OFPO).
   4
       Additional Debt Recoveries ($212,391,235) less Additional Debt Recovery Costs ($12,743,474).


                                                      C-1
2. We estimated the amount of SSI debt that would have been in a collection
   arrangement had SSA achieved the FY 2002 level of 55.4 percent of SSI debt in a
   collection arrangement. For example, we applied 55.4 percent to the
   $5,730,300,000 of remaining outstanding SSI debt for FY 2008 and determined that
   $3,174,586,200 would have been in a collection arrangement had SSA placed SSI
   debt in a collection arrangement at the FY 2002 level (see Table C-2, row 2). 5

3. Using the actual percent of SSI debt in a collection arrangement, we estimated the
   amount of debt that was actually in a collection arrangement. For example,
   50.4 percent of SSI debt was in a collection arrangement in FY 2008. Therefore, we
   applied 50.4 percent to the $5,730,300,000 of outstanding SSI debt for FY 2008 and
   estimated $2,888,071,200 was actually in a collection arrangement in FY 2008 (see
   Table C-2, row 4).

4. We computed the additional SSI debt SSA could have placed in a collection
   arrangement at the FY 2002 level. To do so, we took the SSI debt that would have
   been in a collection arrangement at the FY 2002 level less the actual SSI debt in a
   collection arrangement. For example, we took the FY 2008 SSI debt in a collection
   arrangement at the FY 2002 level of $3,174,586,200 less the $2,888,071,200 that
   was actually in a collection arrangement in FY 2008. This resulted in
   $286,515,000 of additional debt in a collection arrangement (see Table C-2, row 5).

5. SSA provided the SSI debt collection rates. For example, the SSI debt collection
   rate in FY 2008 was 18.5 percent (see Table C-2, row 6).

6. Using the SSI debt collection rates, we estimated the additional debt that could have
   been recovered during FYs 2008 through 2011. 6

         a. We applied the FY 2008 debt collection rate of 18.5 percent to the
            $286,515,000 of additional SSI debt in a collection arrangement and
            determined the additional debt recovered throughout FY 2008 would have
            been $53,005,275 (see Table C-2, row 7).


5
  SSA calculates the percent of outstanding SSI debt in a collection arrangement monthly. The annual
percent of outstanding SSI debt in a collection arrangement, as reported in SSA’s Performance and
Accountability Report, is based on the average for the 12 months in the FY. For our analysis, we applied
the annual percent to the outstanding debt at the end of the FY. We determined this to be reasonable
because we did not expect significant fluctuations in the monthly amounts of outstanding SSI debt and
percentages of outstanding debt in a collection arrangement.
6
  SSA does not maintain debt collection rates for outstanding SSI debt in a collection arrangement.
Therefore, our analysis is based on historical collection rates for the SSI program. The amount of
additional SSI debt that SSA would have actually recovered may be higher or lower depending on the mix
of additional SSI debt in a collection arrangement, since some debt may be easier to collect than other
debt. According to SSA, some of the additional outstanding SSI debt we estimated that could have been
recovered by placing additional debt in a collection arrangement would have been recovered without
being placed in a collection arrangement. However, we could not estimate this amount because SSA
does not maintain debt collection rates for outstanding SSI debt that is not in a collection arrangement.


                                                  C-2
b. We took the $286,515,000 of additional SSI debt placed in a collection
   arrangement in FY 2008 less the $53,005,275 SSA would have recovered
   throughout FY 2008 to arrive at the $233,509,725 of debt that would be
   available for collection in FY 2009 (see Table C-2, row 8).

c. We applied the FY 2009 debt collection rate of 17.4 percent to the
   $233,509,725 of remaining SSI debt in a collection arrangement and
   determined the additional debt recovered in FY 2009 would have been
   $40,630,692 (see Table C-2, row 10).




                                 C-3
     Table C-2: Additional SSI Debt Recoveries During FYs 2008 – 2011 Based on the FY 2002 Level
                     of Outstanding SSI Debt in a Collection Arrangement in FY 2008
     Row                   Additional Outstanding SSI Debt in a Collection Arrangement
                                                          7
       1    Outstanding SSI Debt at the End of FY 2008                                $5,730,300,000
            SSI Debt in a Collection Arrangement at the FY 2002 Level:
       2                                                                              $3,174,586,200
            Outstanding SSI Debt times 55.4 Percent
                                                                                    8
       3    Actual Percent of SSI Debt in a Collection Arrangement for FY 2008            50.4%
            Actual SSI Debt in a Collection Arrangement: Outstanding SSI Debt at
       4    the End of FY 2008 ($5,730,300,000) times Actual Percent of SSI Debt in   $2,888,071,200
            a Collection Arrangement for FY 2008 (50.4 Percent)
            Additional SSI Debt in a Collection Arrangement for FY 2008: SSI
       5    Debt in a Collection Arrangement at the FY 2002 Level ($3,174,586,200)     $286,515,000
            less Actual SSI Debt in a Collection Arrangement ($2,888,071,200)
     Row                           Additional FY 2008 Debt Recoveries in FY 2008
                                                    9
       6    SSI Debt Collection Rate for FY 2008                                          18.5%
            Additional SSI Debt Recoveries in FY 2008: Additional SSI Debt in a
       7    Collection Arrangement for FY 2008 ($286,515,000) times SSI Debt            $53,005,275
            Collection Rate for FY 2008 (18.5 percent)
     Row                           Additional FY 2008 Debt Recoveries in FY 2009
            Additional SSI Debt in a Collection Arrangement for FY 2008
            Available for Collection in FY 2009: Additional SSI Debt in a Collection
       8                                                                               $233,509,725
            Arrangement for FY 2008 ($286,515,000) less Additional SSI Debt
            Recoveries in FY 2008 ($53,005,275)
       9    SSI Debt Collection Rate for FY 2009                                          17.4%
            Additional SSI Debt Recoveries in FY 2009: Additional SSI Debt in a
      10    Collection Arrangement for FY 2008 Available for Collection in FY 2009      $40,630,692
            times SSI Debt Collection Rate for FY 2008
     Row                           Additional FY 2008 Debt Recoveries in FY 2010
            Additional SSI Debt in a Collection Arrangement for FY 2008
      11                                                                               $192,879,033
            Available for Collection in FY 2010
      12    SSI Debt Collection Rate for FY 2010                                          17.1%
      13    Additional SSI Debt Recoveries in FY 2010                                   $32,982,315
     Row                           Additional FY 2008 Debt Recoveries in FY 2011
            Additional SSI Debt in a Collection Arrangement for FY 2008
      14                                                                               $159,896,718
            Available for Collection in FY 2011
                                                    10
      15    SSI Debt Collection Rate for FY 2011                                          17.1%
      16    Additional SSI Debt Recoveries in FY 2011                                   $27,342,339




7
    Provided by SSA’s OFPO.
8
    See Table 1 on Page 3 of the report.
9
 SSI debt collection rate represents the percent of outstanding debt collected during the FY, as provided
by SSA’s OFPO.
10
  The SSI debt collection rate for FY 2011 is not available. Therefore, we used the SSI debt collection
rate for FY 2010.


                                                   C-4
We used a similar methodology to estimate the additional SSI debt SSA could have
placed in a collection arrangement during FYs 2009 and 2010 and subsequently
recovered had SSA placed debt in a collection arrangement at the level it did in
FY 2002. However, for FYs 2009 and 2010, we considered the debt that would have
been placed in a debt collection arrangement and subsequently recovered in FYs 2008
and 2009 if SSA had placed debt in a collection arrangement at the FY 2002 level. To
do so, we:

   1. Took the actual outstanding SSI debt provided by SSA less the estimated
      additional debt recoveries we calculated for the previous year by placing
      additional debt in a collection arrangement. For example, we took the FY 2009
      actual outstanding SSI debt of $6,327,200,000 less the $53,005,275 of additional
      debt recoveries for FY 2008. This resulted in $6,274,194,725 of remaining
      outstanding SSI debt (see Table C-3, row 3).

   2. Took the SSI debt in a collection arrangement at the FY 2002 less the additional
      SSI debt in a collection arrangement from the previous year that remained
      available for collection. For example, we took the SSI debt in a collection
      arrangement at the FY 2009 level of $3,475,903,878 less the $233,509,725 of
      additional SSI debt in a collection arrangement for FY 2008 available for
      collection in FY 2009. This resulted in $3,242,394,153 of total SSI debt in a
      collection arrangement in FY 2009 (see Table C-3, row 6).




                                         C-5
 Table C-3: Additional SSI Debt Recoveries During FYs 2009 – 2011 Based on the FY 2002 Level
                  of Outstanding SSI Debt in a Collection Arrangement in FY 2009
 Row                   Additional Outstanding SSI Debt in a Collection Arrangement
                                                     11
   1   Outstanding SSI Debt at the End of FY 2009                                 $6,327,200,000
   2   Additional SSI Debt Recoveries in FY 2008: See Table C-2, Row 7              $53,005,275
       Remaining Outstanding SSI Debt: Outstanding SSI Debt at the End of
   3                                                                              $6,274,194,725
       FY 2009 less Additional SSI Debt Recoveries in FY 2008
       SSI Debt in a Collection Arrangement at the FY 2002 Level:
   4                                                                              $3,475,903,878
       Remaining Outstanding SSI Debt times 55.4 percent
       FY 2008 SSI Debt in a Collection Arrangement Available for
   5                                                                               $233,509,725
       Collection in FY 2009: See Table C-2, Row 8
       Remaining FY 2009 SSI Debt in a Collection Arrangement at the
       FY 2002 Level: SSI Debt in a Collection Arrangement at the FY 2002
   6                                                                              $3,242,394,153
       Level less FY 2008 SSI Debt in a Collection Arrangement Available for
       Collection in FY 2009
                                                                               12
   7   Actual Percent of SSI Debt in a Collection Arrangement for FY 2009              49.9%
       Actual SSI Debt in a Collection Arrangement: Outstanding SSI Debt at
   8   the End of FY 2009 ($6,327,200,000) times Actual Percent of SSI Debt in    $3,157,272,800
       a Collection Arrangement for FY 2009 (49.9 percent)
       Additional SSI Debt in a Collection Arrangement for FY 2009:
       Remaining FY 2009 SSI Debt in a Collection Arrangement at the FY 2002
   9                                                                                $85,121,353
       Level ($3,242,394,153) less Actual SSI Debt in a Collection Arrangement
       ($3,157,272,800)
 Row                          Additional FY 2009 Debt Recoveries in FY 2009
                                              13
  10   SSI Debt Collection Rate for FY 2009                                            17.4%
       Additional SSI Debt Recoveries in FY 2009: Additional SSI Debt in a
  11   Collection Arrangement for FY 2009 ($85,121,353) times SSI Debt              $14,811,115
       Collection Rate for FY 2009 (17.4 percent)
 Row                          Additional FY 2009 Debt Recoveries in FY 2010
       Additional SSI Debt in a Collection Arrangement for FY 2009
       Available for Collection in FY 2010: Additional SSI Debt in a Collection
  12                                                                                $70,310,238
       Arrangement for FY 2009 ($85,121,353) less Additional SSI Debt
       Recoveries in FY 2009 ($14,811,115)
  13   SSI Debt Collection Rate for FY 2010                                            17.1%
       Additional SSI Debt Recoveries in FY 2010: Additional SSI Debt in a
  14   Collection Arrangement for FY 2009 Available for Collection in FY 2010       $12,023,051
       times SSI Debt Collection Rate for FY 2010
 Row                          Additional FY 2009 Debt Recoveries in FY 2011
       Additional SSI Debt in a Collection Arrangement for FY 2009
  15                                                                                $58,287,187
       Available for Collection in FY 2011
                                              14
  16   SSI Debt Collection Rate for FY 2011                                            17.1%
  17   Additional SSI Debt Recoveries in FY 2011                                     $9,967,109




11
     Provided by SSA’s OFPO.
12
     See Table 1 on Page 3 of the report.
13
     Supra note 9.
14
     Supra note 10.


                                               C-6
 Table C-4: Additional SSI Debt Recoveries During FYs 2010 – 2011 Based on the FY 2002 Level
                 of Outstanding SSI Debt in a Collection Arrangement in FY 2010
 Row                  Additional Outstanding SSI Debt in a Collection Arrangement
                                                     15
   1   Outstanding SSI Debt at the End of FY 2010                                 $6,850,200,000
       Additional SSI Debt Recoveries in FY 2009: Additional FY 2008 Debt
       Recoveries in FY 2009 ($40,630,692 from Table C-2, row 10) plus
   2                                                                                $55,441,807
       Additional FY 2009 Debt Recoveries in FY 2009 ($14,811,115 from
       Table C-3, Row 11)
       Remaining Outstanding SSI Debt: Outstanding SSI Debt at the End of
   3                                                                              $6,794,758,193
       FY 2010 less Additional SSI Debt Recoveries in FY 2009
       SSI Debt in a Collection Arrangement at the FY 2002 Level:
   4                                                                              $3,764,296,039
       Remaining Outstanding SSI Debt times 55.4 Percent
       FY 2008 and FY 2009 SSI Debt in a Collection Arrangement Available
       for Collection in FY 2010: Additional SSI Debt in a Collection
       Arrangement for FY 2008 Available for Collection in FY 2010
   5                                                                               $263,189,271
       ($192,879,033 from Table C-2, Row 11) plus Additional SSI Debt in a
       Collection Arrangement for FY 2009 Available for Collection in FY 2010
       ($70,310,238 from Table C-3, Row 12)
       Remaining FY 2010 SSI Debt in a Collection Arrangement at the
       FY 2002 Level: SSI Debt in a Collection Arrangement at the FY 2002
   6                                                                              $3,501,106,768
       Level less FY 2008 and FY 2009 SSI Debt in a Collection Arrangement
       Available for Collection in FY 2010
                                                                               16
   7   Actual Percent of SSI Debt in a Collection Arrangement for FY 2010              50.1%
       Actual SSI Debt in a Collection Arrangement: Outstanding SSI Debt at
   8   the End of FY 2010 ($6,850,200,000) times Actual Percent of SSI Debt in    $3,431,950,200
       a Collection Arrangement for FY 2010 (50.1 percent)
       Additional SSI Debt in a Collection Arrangement for FY 2010:
       Remaining FY 2010 SSI Debt in a Collection Arrangement at the FY 2002
   9                                                                                $69,156,568
       Level ($3,501,106,768) less Actual SSI Debt in a Collection Arrangement
       ($3,431,950,200)
 Row                           Additional FY 2010 Debt Recoveries in FY 2010
                                              17
  10   SSI Debt Collection Rate for FY 2010                                            17.1%
       Additional SSI Debt Recoveries in FY 2010: Additional SSI Debt in a
  11   Collection Arrangement for FY 2010 ($69,156,569) times SSI Debt              $11,825,773
       Collection Rate for FY 2010 (17.1 percent)
 Row                           Additional FY 2010 Debt Recoveries in FY 2011
       Additional SSI Debt in a Collection Arrangement for FY 2010
       Available for Collection in FY 2011: Additional SSI Debt in a Collection
  12                                                                                $57,330,795
       Arrangement for FY 2010 ($69,156,568) less Additional SSI Debt
       Recoveries in FY 2010 ($11,825,773)
                                              18
  13   SSI Debt Collection Rate for FY 2011                                            17.1%
       Additional SSI Debt Recoveries in FY 2010: Additional SSI Debt in a
  14   Collection Arrangement for FY 2010 Available for Collection in FY 2011        $9,803,566
       times SSI Debt Collection Rate for FY 2010




15
     Provided by SSA’s OFPO.
16
     See Table 1 on Page 3 of the report.
17
     Supra note 9.
18
     Supra note 10.


                                               C-7
                                                                                      Appendix D

Supplemental Security Income Debt Collection
Activities
The Social Security Administration (SSA) uses nine debt collection activities in the
Supplement Security Income (SSI) program (see Table D-1).

                              Table D-1: Current Debt Collection Activities
                                                                                            FY 2009 Debt
    Activity                                   Description                                  Recoveries (in
                                                                                              millions)
                  Occurs if a recipient has not refunded the overpayment and eligibility
                  for SSI payments continues. The rate of adjustment is the lesser of
Benefit
                  10 percent of recipient’s total monthly income (countable income plus          $721
Withholding
                  SSI and State supplementary payment) or the recipient’s entire
                  monthly benefit.
                  An automated process to net SSI overpayments against SSI
Benefit Netting                                                                                  $134
                  underpayments.
                A debt collection tool in which SSA collects SSI overpayments by
Cross Program
                offsetting the debtor’s Title II benefit payment. SSA is allowed to              $73
Recovery
                withhold 10 percent of the Title II benefit payment.
                A Government-wide system run by the Department of the Treasury.
                It allows SSA (or any other Federal agency) to recover an
                overpayment by making a deduction from any other Federal benefit
                due to the debtor. In the TOP, SSA also has the following programs.
                • Tax Refund Offset – a program that deducts overpayment from
Treasury Offset       the debtor’s Federal income tax refund.                                          1
                                                                                                 $56
Program (TOP) • Federal Salary Offset – a program whereby a Federal agency
                      withholds up to 15 percent of a debtor employee’s disposable
                      pay to repay an SSI debt.
                • Administrative Offset – a program that reduces or withholds
                      payments other than tax refunds, such as Federal travel and
                      expense reimbursements.
Refund          Occurs when the entire amount of the overpayment is returned to
                                                                                                 $19
Recovery        SSA. It is SSA's preferred method of recovery.
Administrative A debt collection tool SSA uses that orders an employer to withhold
Wage            up to 15 percent of a debtor employee’s disposable pay. The                       $4
Garnishment     employer pays the withheld amount to the Agency.
                                                                                            Debt Recoveries
Credit Bureau     A debt collection tool where SSA posts the overpayment debt on the
                                                                                               Included in
Reporting         individual's credit record to influence a debtor to repay the SSI debt.
                                                                                            Refund Recovery
                  Occurs when the debtor is unable to make full refund in a single          Debt Recoveries
Installment
                  payment and benefit withholding is not available. Therefore, debtors         Included in
Plan
                  make monthly payments.                                                    Refund Recovery
Compromise        Occurs when an individual offers to repay SSA an amount less than         Not Provided by
Agreement         the total debt owed and SSA accepts the offer.                                  SSA

1
 Debt collections from TOP were high in FYs 2008 and 2009 because of stimulus payments and
Economic Recovery payments. SSA anticipates collections from TOP to decrease in FY 2010.


                                                     D-1
SSA also began to implement new SSI debt collection activity enhancements.

Title XVI Overpayment Transfers

Title XVI overpayment transfer is a debt collection tool that scans an SSI recipient’s
records looking for old, uncollected debt. SSA estimates the Title XVI overpayment
transfers project will account for $16.5 million in average annual SSI program savings.

External Collection Operation Enhancements

External Collection Operation (ECO) enhancements are a series of three projects meant
to expand or correct current collection activities. SSA estimates the three ECO
enhancements will account for $27.5 million in average annual SSI program savings.

    •   The first ECO enhancement project corrected an error that prevented selection of
        certain types of SSI debt for recovery using Tax Refund Offset.

    •   The second ECO enhancement project will implement system changes that
        remove the 10-year statute of limitations for collecting SSI debts using TOP.

    •   The third ECO enhancement will initiate collection of delinquent SSI debts from
        federally administered state payments.2




2
 As of March 2011, SSA had not received funding to implement the second and third ECO
enhancements. SSA will attempt to obtain funding at the next available opportunity.


                                               D-2
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      April 4, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Debt Collection Activities in the Supplemental
           Security Program” (A-07-10-20139)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Chris Molander at (410) 965-7401.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“DEBT COLLECTION ACTIVITIES IN THE SUPPLEMENTAL SECURITY INCOME
PROGRAM” (A-07-10-20139)


Thank you for the opportunity to review the subject draft report. We offer the following
response to your recommendation.

Recommendation

Identify a reasonable goal for the level of Supplemental Security Income (SSI) debt that should
be in a collection arrangement each year and dedicate the necessary resources to processing the
debt collection workload to achieve the goal.

Response

We disagree. As is the case for most Federal agencies, we are experiencing budget uncertainties,
which has currently affected hiring and overtime. Because of these uncertainties, we have to
make difficult choices. We are currently directing our resources to more cost-effective program
integrity work while ensuring that our staff focuses on our fundamental responsibilities of
delivering service to the public.

We have made progress in reducing improper SSI payments by implementing some new tools,
along with increasing the number of redeterminations we complete. In fiscal year (FY) 2010,
17 States utilized the Access to Financial Institutions (AFI) Project. AFI enables us to
electronically verify bank account balances and identify undisclosed bank accounts that may
preclude eligibility, or change the amount of SSI payments. By the end of FY 2011, we plan to
implement the AFI Project nationwide. In addition, we have seen increased use of our SSI
Telephone Wage Reporting System, which allows SSI recipients to call a toll-free number to
report their wages via a voice recognition system. Our wage reporting system is updated
automatically with the information provided. From FY 2009 to FY 2010, we realized a
390 percent increase in telephone wage reporting.

We are confident our SSI payment accuracy will continue to improve, thereby reducing the
amount of SSI debt that we will need to recoup via a collection arrangement. Because of the
continued reduction in SSI debt, as well as the increased use of more efficient methods for
preventing, detecting and recouping SSI overpayments, we will not establish a goal for SSI debt
collection arrangements.




                                              E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Tonya Eickman, Audit Manager

Acknowledgments

In addition to those named above:

   Jesse Card, Auditor
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-10-20139.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
